TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                Payments Made at the
                             Taxpayer Assistance Centers
                               Are Generally Timely and
                                Accurately Processed



                                         September 2005

                              Reference Number: 2005-40-148




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Web Site        / http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 28, 2005


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION



 FROM:                       Pamela J. Gardiner
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Payments Made at the Taxpayer Assistance
                             Centers Are Generally Timely and Accurately Processed
                             (Audit # 200540032)

 This report presents the results of our review of whether Internal Revenue Service (IRS) controls
 ensure timely and accurate processing of taxpayer payments made at Taxpayer Assistance
 Centers (TAC).

 Synopsis
 The IRS has local offices called TACs that assist taxpayers in interpreting tax laws and
 regulations, preparing certain individual tax returns, resolving inquiries on taxpayer accounts,
 accepting payments, and providing various other services designed to minimize the burden on
 taxpayers in satisfying their tax obligations. The Field Assistance Office in the Wage and
 Investment (W&I) Division has responsibility for overseeing the TACs.
 During Fiscal Year 2004, the TACs received over 977,000 payments from taxpayers, including
 both cash and noncash remittances. A review of a judgmental sample of 698 cash and noncash
 payments received during Calendar Years 2002 through 2005 for 14 selected TACs showed that
 688 (99 percent) were appropriately posted to the taxpayers’ accounts. We could not determine
 if 10 were posted because we did not have sufficient information to research the taxpayers’
 accounts (either the taxpayers did not have identification numbers assigned yet or we could not
 determine the correct identification numbers).
 We did not identify missing payments or significant control breakdowns in the processing of
 payments received by the TACs. However, we identified instances when internal controls were
                           Payments Made at the Taxpayer Assistance Centers
                             Are Generally Timely and Accurately Processed



not always effective (e.g., internal controls over the security of assets and the documentation of
transactions). This happened because employees were not following procedures.
In 253 instances involving 219 of the 698 reviewed payments, TAC employees did not follow
prescribed procedures associated with payment documentation. Twenty-five (69 percent) of
36 employees1 did not follow guidelines concerning proper security over taxpayer payments.
The dollar value of the 219 payments identified with 1 or more errors was $5,721,324.95.
However, no taxpayers were adversely affected by these errors.
We also determined the Integrated Data Retrieval System2 profiles for 23 (66 percent) of
35 employees with open Receipt for Payment of Taxes (Form 809) receipt books in the 14 TACs
visited had access to sensitive command codes. Nine of the 23 employees used the sensitive
commands to access 93 taxpayer accounts; 6 of the 9 were located in 1 TAC. This occurred
because management did not ensure the profiles for employees with open Form 809 receipt
books had been appropriately restricted and were not monitoring the command codes used by
these employees. We did not identify any specific improprieties from these accesses.

Recommendations
The Commissioner, W&I Division, should reinforce the importance of complying with internal
controls over payments and ensure the Integrated Data Retrieval System profiles of all
employees with open Form 809 receipt books are appropriately restricted.

Response
The IRS agreed with our recommendations and appreciated our acknowledgement that payments
made at the TACs are generally timely and accurately processed. They stated this underscores
the IRS’ strong commitment to ensure internal controls over processing payments in its TACs
are effective and operating as intended. The IRS will provide additional training to all TAC
managers that will include the proper use of the restrictive IDRS command code and definer
codes. Management will also periodically emphasize adherence to procedures. In addition, the
IRS has corrected the profiles of the employees who had open Form 809 receipt books and
access to sensitive command codes. After completion of training, all Field Assistance Areas will
be required to certify that all employees with open Form 809 receipt books have restricted IDRS
profiles. Management’s complete response to the draft report is included as Appendix VI.



1
  Included in the 36 employees is 1 employee interviewed who was not assigned a Receipt for Payment of Taxes
(Form 809) receipt book but who accepted noncash payments.
2
  The Integrated Data Retrieval System is the IRS computer system capable of retrieving or updating stored
information; it works in conjunction with a taxpayer’s account records.
                                                                                                               2
                       Payments Made at the Taxpayer Assistance Centers
                         Are Generally Timely and Accurately Processed




Office of Audit Comment
IRS management disagreed with the outcome measure reported for the deviations from required
security procedures affecting 219 payments totaling $5,721,324.95. The IRS believes this is not
a valid representation because our review reflected that no taxpayers were adversely affected and
the deviations did not impact the timely and accurate processing of the payment. However, we
believe these deviations denote an increased risk of theft, loss, or misuse for the payments
affected during the time the procedures were not being followed.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.




                                                                                                3
                                Payments Made at the Taxpayer Assistance Centers
                                  Are Generally Timely and Accurately Processed




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Majority of Payments Accepted at the Taxpayer Assistance Centers
          Were Timely and Accurately Processed, but Internal Controls Could
          Be Strengthened ............................................................................................Page 4
                    Recommendation 1:..........................................................Page 6

          Employees With Open Form 809 Receipt Books Have Access
          to Sensitive Command Codes .......................................................................Page 7
                    Recommendations 2 and 3: ................................................Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Outcome Measures...............................................................Page 14
          Appendix V – Taxpayer Assistance Centers Visited and the
          Selection Criteria and Methodology .............................................................Page 16
          Appendix VI – Management’s Response to the Draft Report ......................Page 18
                            Payments Made at the Taxpayer Assistance Centers
                              Are Generally Timely and Accurately Processed




                                             Background

During Fiscal Year 2004, taxpayers chose to walk into local Internal Revenue Service (IRS)
offices called Taxpayer Assistance Centers (TAC)1 to make over 977,000 payments on their
individual and business accounts. Payments were made in cash, checks, and money orders and
allowed taxpayers to meet their tax obligations relating to outstanding tax balances due on tax
returns and the Heavy Highway Vehicle Use Tax Return (Form 2290). Form 2290 is required to
file tax due on highway motor vehicles over a taxable gross weight of 55,000 pounds used during
the period.
When payments are made at the TACs, employees must process the payments and send them to
the IRS Submission Processing sites, the IRS data processing centers. Figure 1 provides the flow
of payments from the TACs to taxpayer accounts (Submission Processing site is abbreviated as
SPS).
                                   Figure 1: Taxpayer Payment Flow




        Source: IRS Manual of guidelines and procedures.

For payments made at the TACs, the IRS has established specific procedures and internal
controls to ensure the security of the payments and the accurate posting of the monies to the
appropriate tax accounts.

1
  The TACs assist taxpayers by interpreting tax laws and regulations, preparing certain individual tax returns,
resolving inquiries on taxpayer accounts, accepting payments, and providing various other services designed to
minimize the burden on taxpayers in satisfying their tax obligations.
                                                                                                            Page 1
                           Payments Made at the Taxpayer Assistance Centers
                             Are Generally Timely and Accurately Processed



•   The Receipt for Payment of Taxes (Form 809) is the only official receipt for payment of
    taxes. Forms 809 must be issued for all cash payments and may be issued for
    noncash payments such as checks or money orders if the taxpayer insists on receiving an
    official receipt. Only authorized employees may accept cash payments and issue the
    Forms 809. To reduce the potential for fraud or embezzlement, employees with an open
    Form 809 receipt book should not have the ability to also adjust taxpayer accounts using the
    Integrated Data Retrieval System (IDRS).2
    The Form 809 is a 4-part form. Part 2 is given to the taxpayer after completion, Parts 1 and 3
    are sent to the Submission Processing site with the payment, and Part 4 is retained by the
    TAC for its records.
•   A cash payment must be converted to a money order or cashier’s check prior to shipment to a
    Submission Processing site for processing and posting to the taxpayer’s account. Employees
    must convert a cash payment to a money order or cashier’s check on the day the payment is
    received or as soon as possible the next business day.
•   Employees accepting a payment must prepare a posting document if one is not received from
    the taxpayer with the payment,3 record the payment on a Daily Report of Collection Activity
    (Form 795), and immediately place the payment in a locked container. Payments and
    Forms 795 should be listed on a Document Transmittal (Form 3210), when there are multiple
    Forms 795 in a remittance package, and sent to the Submission Processing sites on the day
    the payments were received or no later than the next business day via traceable, overnight
    mail.
•   Each Submission Processing site should acknowledge receipt of the remittance package
    within 5 workdays. If the TAC does not receive an acknowledgement, it should investigate
    within 10 workdays to determine the status of the shipment.
IRS guidelines require that at least one employee in each TAC be able to accept cash payments.
However, the IRS granted a deviation to some TACs with only one or two employees because it
determined that adjusting taxpayer accounts was needed more than accepting cash payments.
Most offices granted a deviation from accepting cash payments reported receiving few cash
payments in the past.
The Field Assistance Office in the Wage and Investment (W&I) Division has responsibility for
overseeing the TACs. This review was performed at the W&I Division Headquarters in
Atlanta, Georgia, and at 14 TACs nationwide during the period December 2004 through


2
  The IDRS is the IRS computer system capable of retrieving or updating stored information; it works in conjunction
with a taxpayer’s account records.
3
  The posting document can be either a tax return or form, the tear-off portion of a notice sent to the taxpayer, a
payment voucher, a Payment Posting Voucher (Form 3244), or a Form 809.
                                                                                                           Page 2
                              Payments Made at the Taxpayer Assistance Centers
                                Are Generally Timely and Accurately Processed



May 2005.4 This audit focused only on the procedures and controls at the TACs and did not test
the procedures and controls at the Submission Processing sites. The audit was conducted in
accordance with Government Auditing Standards. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




4
    See Appendix V for a list of the TACs visited.
                                                                                          Page 3
                         Payments Made at the Taxpayer Assistance Centers
                           Are Generally Timely and Accurately Processed




                                  Results of Review

The Majority of Payments Accepted at the Taxpayer Assistance
Centers Were Timely and Accurately Processed, but Internal Controls
Could Be Strengthened

We did not identify missing payments or significant control breakdowns with the processing of
payments received by the TACs. A review of a judgmental sample of 698 payments (345 cash
and 353 noncash, such as checks and money orders) received by the TACs during
Calendar Years 2002 through 2005 for 14 selected TACs showed that 688 (99 percent) payments
were posted to taxpayers’ accounts. We could not determine if 10 payments were posted
because we did not have sufficient information to research the taxpayers’ accounts (either the
taxpayers did not have identification numbers assigned yet or we could not determine the correct
identification numbers).
All 34 Form 809 receipt books, all 1,700 Form 809 receipts, and cash payments were accounted
for in 13 of the 14 TACs visited. In one TAC visited, the employee with the Form 809 receipt
book was not there the day of our visit and no one else in the office had access to the receipt
book.
In addition, some offices have implemented practices that appear to help save resources, provide
better security over cash payments, or help ensure payments are posted accurately. For example,
offices with large volumes of cash consolidate their cash conversions to save conversion costs
and employee time. Another office has a reviewer compare all payment-related documentation
to help ensure all required information was recorded correctly.
Although procedures and internal controls are in place to ensure payments are timely processed
and accurately posted, we identified instances when internal controls were not always effective
(e.g., internal controls over the security of assets and the documentation of transactions). This
happened because employees were not following procedures.
The Government Accountability Office has also reported instances of internal control
weaknesses that affect the safeguarding of taxpayer receipts and information at the TACs.5
Specifically, it reported that some offices did not follow procedures to safeguard taxpayer


5
 Management Report: Improvements Needed in IRS’s Accounting Procedures and Internal Controls
(GAO-02-746R, dated July 2002), Management Report: Improvements Needed in IRS’s Internal Controls
(GAO-03-562R, dated May 2003), and Management Report: Improvements Needed in IRS’s Internal Controls and
Accounting Procedures (GAO-04-553R, dated April 2004).
                                                                                                  Page 4
                          Payments Made at the Taxpayer Assistance Centers
                            Are Generally Timely and Accurately Processed



receipts and information. In addition, in one of two TACs visited, employees were allowed to
store personal belongings with cash payments and Form 809 receipts books. Additionally, the
Government Accountability Office reported that some TACs did not display signs advising
taxpayers of the services provided or that exact change is needed when making cash payments.

Procedural requirements were not always followed; however, these errors did not
affect the timely and accurate processing of the payments

In 253 instances involving 698 reviewed payments, TAC employees did not follow prescribed
procedures associated with payment documentation. Twenty-five (69 percent) of 36 employees6
did not follow guidelines concerning proper security over taxpayer payments. In addition,
receipts of remittance packages were not always monitored. While the employees did not
consistently follow all established procedures, these deviations did not affect the timely and
accurate processing of the payments:
•   For the 698 payments tested, TAC employees:
    o Could not provide all payment documentation for 118 (17 percent) payments.
    o Either did not record any or did not record all the required cash conversion information
      on Part 4 of the Form 809 for 122 (35 percent) of 345 cash payments.
    o Did not record all of the required information on the Forms 795 or the information
      recorded was incorrect for 13 (2 percent) payments.
•   Of the 35 employees with open Form 809 receipt books and 1 employee interviewed who
    accepted noncash payments, 25 (69 percent) did not secure either the Form 809 receipt book,
    cash, checks, or money orders as prescribed by IRS guidelines. Those guidelines state that
    proper security over taxpayer payments “requires a locked perimeter and a locked container.”
    A locked container is defined as “any metal container with riveted or welded seams which is
    locked and to which keys and combinations are controlled.” The Form 809 receipt book
    carries the same security requirements as cash payments. These 25 employees were located
    in 7 of the 14 TACs visited; 15 of them were located in 1 office.
    o One employee placed checks and money orders received from taxpayers in a manila
      folder and placed it next to the employee’s computer until time to prepare the shipping
      package.
    o One employee stored the checks and money orders loose in an unlocked desk drawer
      until time to prepare the shipping package.


6
 Included in the 36 employees is 1 employee interviewed who was not assigned a Form 809 receipt book but who
accepted noncash payments.
                                                                                                      Page 5
                        Payments Made at the Taxpayer Assistance Centers
                          Are Generally Timely and Accurately Processed



    o Three employees in one TAC did not secure cash payments in the safe overnight.
    o Five employees did not properly secure the Form 809 receipt books. Four did not secure
      the Form 809 receipt books in the safe overnight, and one secured the Form 809 receipt
      book in a canvas bag in a locked overhead cabinet. Neither the canvas bag nor the
      overhead cabinet meets the IRS specifications for an appropriately locked container.
    o Fifteen employees in one TAC stored the checks and money orders in a locked canvas
      bag in a work station’s overhead cabinet. Neither the canvas bag nor the overhead
      cabinet meets IRS specifications for an appropriately locked container.
•   Timely acknowledgement of the remittance packages by the Submission Processing site was
    not monitored in 8 (57 percent) of 14 offices. The Submission Processing sites should
    acknowledge receipt of the remittance package within 5 workdays; if this acknowledgement
    is not received, the TAC should follow up within 10 workdays to determine if the package
    was received.
The dollar value of the 219 payments identified with 1 or more errors was $5,721,324.95.
Also, in 5 (36 percent) of 14 offices, the TACs did not display proper signs advising taxpayers
that exact change was needed when making cash payments or advising of the services available
at the TAC. The TAC is required to display signs in both English and Spanish advising
taxpayers of the services available at the TAC and that, if a cash payment is being made, exact
change is needed.
While some internal control procedures were not followed in every TAC visited, there are
compensating controls built into the payment process that should reduce the risk. For example,
the Submission Processing sites review the remittance packages and issue a Teller’s Error
Advice (Form 5919) to alert the TAC managers of any errors or delays identified. However,
good internal controls ensure:
•   Security over assets such as cash, which is vulnerable to risk of loss or unauthorized use.
•   All transactions and other significant events are clearly documented, all documentation and
    records are properly managed and maintained, and the documentation is readily available for
    examination.
When a control environment diminishes, the risk increases that payments can be lost, stolen,
misused, or destroyed.


Recommendation

Recommendation 1: The Commissioner, W&I Division, should reinforce and emphasize the
importance of complying with internal controls over payments through alerts and additional
training.
                                                                                             Page 6
                       Payments Made at the Taxpayer Assistance Centers
                         Are Generally Timely and Accurately Processed



       Management’s Response: IRS management stated additional training would be
       provided to all TAC managers and they would periodically emphasize adherence to
       procedures. IRS management disagreed with the outcome measure reported for the
       deviations from required security procedures affecting 219 payments totaling
       $5,721,324.95. The IRS believes this is not a valid representation because our review
       reflected that no taxpayers were adversely affected and the deviations did not impact the
       timely and accurate processing of the payment.
       Office of Audit Comment: We believe the 219 payments totaling $5,721,324.95
       indicate an increased risk of theft, loss, or misuse of the payments affected during the
       time the procedures were not being followed.


Employees With Open Form 809 Receipt Books Have Access to
Sensitive Command Codes

Field Assistance Office management did not ensure employees assigned an open Form 809
receipt book had limited access to taxpayer accounts on the IDRS. In the 14 offices visited,
23 (66 percent) of 35 employees with open Form 809 receipt books had access to sensitive
command codes that could be used to adjust taxpayer accounts on the IDRS. Based on research
of the IDRS, we determined that, during the period January 3 through February 11, 2005, 9 of
the 23 employees with sensitive commands in their profiles used the sensitive command codes to
access (i.e., research or adjust) 93 taxpayer accounts. Six of the nine employees were located in
one TAC.
                              This happened because TAC managers were not limiting
                              employees’ access to sensitive command codes and were not
                              monitoring the use for employees with open Form 809 receipt
                              books. In addition, Field Assistance Office management did not
                              identify this situation in IRS-provided managerial reviews for
                              5 (36 percent) of 14 offices. Internal guidelines require that
                              employees with open Form 809 receipt books not be given
                              sensitive IDRS command codes. This ensures employees
                              responsible for accepting and processing payments do not also
                              have the capability to record them.
Managers must ensure only appropriate employees have Form 809 receipt books and those
employees with open Form 809 receipt books have only research command codes in their
IDRS profiles. A command code is considered “sensitive” if it can be used to adjust account
balances, change the status of a tax module account, or affect the tax liability.



                                                                                            Page 7
                       Payments Made at the Taxpayer Assistance Centers
                         Are Generally Timely and Accurately Processed



To address the issue of employees with open Form 809 receipt books having access to sensitive
command codes, the W&I Division, in conjunction with the IDRS Security Program Office,
developed a new IDRS control that automatically restricts employees’ access to only
nonsensitive command codes. As of December 2004, TAC managers had access to this new
restrictive command code. Managers input a definer code to an employee’s IDRS profile that
restricts the use of those commands that have previously been identified as sensitive and should
be restricted from use by those with open Form 809 receipt books.
However, some managers had trouble using the restrictive IDRS command code or used the
wrong definer (which would not restrict the use of the correct, sensitive command codes). One
office manager reported that attempts to use the restrictive command code in November were
unsuccessful and no further attempts were made. That manager was manually deleting
inappropriate IDRS command codes but had not identified and removed all the sensitive
command codes.
Although we did not identify any specific improprieties associated with the accesses to the
93 taxpayer accounts, the risk for fraud or embezzlement increases when employees accept cash
payments and have the ability to adjust taxpayer accounts. Management needs to ensure
monitoring of internal controls over assets is consistent with this risk.


Recommendations
The Commissioner, W&I Division, should:

Recommendation 2: Require Field Assistance Office management to provide additional
training or guidance on the use of the restrictive IDRS command code and the definer code, to
ensure all TAC managers understand how to appropriately use the command code, and
emphasize the importance of properly restricting the profiles for employees with open
Form 809 receipt books.
       Management’s Response: IRS management stated the training provided to all TAC
       managers would include the proper use of the restrictive IDRS command code and
       definer codes.
Recommendation 3: Ensure all TAC managers have verified that all employees with open
Form 809 receipt books have restricted IDRS profiles.
       Management’s Response: IRS management stated they have corrected the profiles
       of the employees who had open Form 809 receipt books and access to sensitive command
       codes. After completion of the training, all Field Assistance Areas will be required to
       certify that all employees with open Form 809 receipt books have restricted IDRS
       profiles.


                                                                                           Page 8
                           Payments Made at the Taxpayer Assistance Centers
                             Are Generally Timely and Accurately Processed



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether Internal Revenue Service (IRS)
controls ensure timely and accurate processing of taxpayer payments made at the Taxpayer
Assistance Centers (TAC).1 To accomplish this objective, we:
I.      Determined whether adequate controls over payments made at the TACs had been
        established.
        A. Discussed procedures with Field Assistance Office2 management to determine the
           established policies and procedures or whether any new guidelines had been issued.
        B. Obtained and analyzed the established policies and procedures for accepting and
           processing payments received at the TACs.
        C. Determined how TAC managers should be using a new Integrated Data Retrieval
           System (IDRS)3 command code to restrict access by employees with Receipt for
           Payment of Taxes (Form 809) receipt books. We also determined when the new
           IDRS restrictive command code was made available for managers to use.
        D. Determined the requirement for operational reviews by local and national managers.
           We obtained and reviewed a judgmental sample of the operational reviews for
           Fiscal Years 2004 and 2005 that were provided by the IRS. We did not determine
           how many reviews were actually performed; however, we requested the most recent
           review for the office visited. Some local offices could not provide the requested
           copies and those copies were requested from Field Assistance management.




1
  The TACs assist taxpayers by interpreting tax laws and regulations, preparing certain individual tax returns,
resolving inquiries on taxpayer accounts, accepting payments, and providing various other services designed to
minimize the burden on taxpayers in satisfying their tax obligations.
2
  The Field Assistance Office in the Wage and Investment Division has responsibility for overseeing the TACs.
3
  The IDRS is the IRS computer system capable of retrieving or updating stored information; it works in conjunction
with a taxpayer’s account records.

                                                                                                          Page 9
                          Payments Made at the Taxpayer Assistance Centers
                            Are Generally Timely and Accurately Processed



        E. Followed up on the corrective actions the IRS has implemented to address
           weaknesses in security and processing of payments previously identified by the
           Treasury Inspector General for Tax Administration (TIGTA)4 and the Government
           Accountability Office.5

II.     Evaluated the controls over and accountability for cash payments.
        A. Selected a judgmental sample of 14 TACs from a universe of over 400.6 See
           Appendix V for a listing of TACs visited and the criteria and methodology for
           selection.
        B. Discussed office policy and procedures for accepting, recording, and submitting cash
           payments with the TAC manager or the employee assigned the Form 809 receipt
           book.
        C. Conducted unannounced Form 809 receipt book verifications at the selected TACs,
           determined controls over the receipt and assignment of the Form 809 receipt books,
           and assessed the security over cash payments. We copied all Forms 809 issued from
           the assigned open Form 809 receipt books. Some employees had their books
           assigned to them for several years, so the 402 receipts issued for cash and noncash
           payments that we copied and researched were made during Calendar Years 2002
           through 2005. One TAC received large amounts of cash; therefore, we selected a
           judgmental sample of nine employees and copied their issued Forms 809.
        D. Performed IDRS research on all selected Forms 809 to determine whether the
           payments were processed to the correct account in the proper amount.
III.    Evaluated the controls over and accountability for noncash payments (checks and money
        orders).
        A. Discussed with the group manager or TAC employee policies and procedures used for
           receipt of noncash payments.


4
  Taxpayer Remittances Were Generally Safeguarded Within the Cincinnati Submission Processing Site;
However, Perimeter Security Needs Improvement (Reference Number 2004-30-183, dated September 2004),
The Internal Revenue Service Needs to Improve Oversight of Remittance Processing Operations (Reference
Number 2003-40-002, dated October 2002), The Internal Revenue Service Needs to Ensure Remittance Processing
Controls Are Being Followed (Reference Number 2002-30-103, dated May 2002), and Controls Over Houston
Receipts Left Taxpayer Cash Payments Vulnerable to Embezzlement (Reference Number 2001-40-149, dated
August 2001).
5
  Management Report: Improvements Needed in IRS’s Accounting Procedures and Internal Controls
(GAO-02-746R, dated July 2002), Management Report: Improvements Needed in IRS’s Internal Controls
 (GAO-03-562R, dated May 2003), Management Report: Improvements Needed in IRS’s Internal Controls and
Accounting Procedures (GAO-04-553R, dated April 2004).
6
  The IRS could not provide us with the exact number of TACs.

                                                                                                    Page 10
                           Payments Made at the Taxpayer Assistance Centers
                             Are Generally Timely and Accurately Processed



        B. Obtained the most recent Daily Report of Collection Activity (Form 795) at each
           TAC visited to research and compare to the issued Forms 809.
        C. Obtained a judgmental sample of at least 10 Forms 7957 acknowledged as received by
           a Submission Processing site (an IRS data processing center) and any Teller’s Error
           Advice (Form 5919) associated with the Forms 795 and determined how the
           managers used the Forms 5919 to improve cash/noncash payment operations. We
           selected the 174 Forms 795 by pulling a sample of forms from file drawers and
           folders provided by the IRS or by asking the TAC to provide the requested copies.
           We attempted to select at least 10 Forms 795 for Fiscal Year 2004 from each of the
           14 TACs visited; however, we discovered some of the copied Forms were for
           Fiscal Year 2005. We included those in our sample.
        D. Selected a judgmental sample of 296 payments from the Forms 795 selected in
           Step III.C. and performed IDRS research to determine whether the payments were
           applied to the correct taxpayer accounts in the correct amount. Since this would be a
           sample of payments from a sample of Forms 795, we did not use any specific
           sampling criteria. We used our judgment to select the payments researched.
IV.     Obtained an extract of 173,901 IDRS accesses for the period January 3 to
        February 11, 2005. Researched that extract for any accesses made by the 35 employees
        identified with Form 809 receipt books assigned to them. We also obtained a printout of
        the employee’s IDRS profile and determined if the employee’s profile had been
        appropriately restricted for access to sensitive command codes.
V.      Contacted the TIGTA Office of Investigations to determine whether there were any
        allegations or reports of missing or stolen payments. We had planned to use this
        information to help plan which offices to include in our field visits. However, there were
        no current taxpayer complaints or reports of missing or stolen payments.
VI.     Discussed discrepancies with appropriate TAC managers.




7
 We selected a judgmental sample because the size of the universe of Forms 795 could not be determined. This is a
paper-based system that would require visiting each Submission Processing site and manually counting the
Forms 795 to get a total.

                                                                                                        Page 11
                      Payments Made at the Taxpayer Assistance Centers
                        Are Generally Timely and Accurately Processed



                                                                              Appendix II

                 Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Paula W. Johnson, Audit Manager
Sharon Shepherd, Lead Auditor
Lynn Faulkner, Senior Auditor
Jack Forbus, Senior Auditor
Jerome Antoine, Auditor
Jean Bell, Auditor
Geraldine Vaughn, Auditor




                                                                                         Page 12
                      Payments Made at the Taxpayer Assistance Centers
                        Are Generally Timely and Accurately Processed



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Acting Director, Strategy and Finance, Wage and Investment Division SE:W:S
Acting Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Acting Director, Stakeholder Partnerships, Education, and Communication, Wage and
Investment Division SE:W:CAR:SPEC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Acting Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 13
                           Payments Made at the Taxpayer Assistance Centers
                             Are Generally Timely and Accurately Processed



                                                                                              Appendix IV

                                    Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.

Type and Value of Outcome Measure:

•   Protection of Resources – Potential; 219 taxpayer payments totaling $5,721,324.95 affected
    (see page 4).

Methodology Used to Measure the Reported Benefits:

We tested a judgmental sample of 698 cash and noncash payments received at 14 TACs during
Calendar Years 2002 through 2005. We selected the offices visited based on Treasury Inspector
General for Tax Administration resources and the volume of payments received by the TACs.
We copied and researched all Receipts for Payment of Taxes (Form 809) issued from the current
open Form 809 receipt books held by the employees present in 11 of the 14 TACs visited
(1 employee with open Form 809 receipt books was out the day of our visit). In one TAC,
because of the large number of employees with Form 809 receipt books, we selected a
judgmental sample of Form 809 receipt books and copied all issued receipts. In another office,
we selected a sample of the issued receipts from the two open Form 809 receipt books.1 We also
selected and researched a judgmental sample of payments recorded on a judgmental sample of
Daily Reports of Collection Activity (Form 795) for Fiscal Years 2004 and 2005.
We classified as errors those payments that were not shipped timely to the appropriate
Submission Processing site (an Internal Revenue Service data processing center), were not
timely posted to the taxpayer’s account, or were not posted to the taxpayer’s account in the same
amount or to the same tax period indicated on the Form 809 or the Form 795. We also classified
as errors instances in which the documents did not contain the required information, the recorded
information was incorrect, payments were not properly secured, or other processing time periods
were not met (e.g., Forms 809 that did not contain the conversion data, Forms 809 on which the


1
 In the remaining 1 of 14 TACs visited, the employee with the Form 809 receipt book was not there the day of our
visit and no one else in the office had access to the receipt book.

                                                                                                         Page 14
                           Payments Made at the Taxpayer Assistance Centers
                             Are Generally Timely and Accurately Processed



taxpayer’s identification number or other information was incorrect, or when the TAC did not
monitor the acknowledgement by the Submission Processing site that the remittance package had
been received).
Of the 698 payments researched, 219 contained at least 1 error. In addition, 25 employees in
7 of the TACs did not properly secure the Form 809 receipt book, cash, or noncash payments in a
required locked metal container during the day or in a safe overnight.

Type and Value of Outcome Measure:

•   Taxpayer Privacy and Security – Potential; 93 taxpayers affected (see page 7).

Methodology Used to Measure the Reported Benefit:

We identified the employees with open Form 809 receipt books in the 14 TACs visited and
researched their Integrated Data Retrieval System (IDRS)2 accesses for the period January 3 to
February 11, 2005. Using the table of sensitive command codes identified by the Internal
Revenue Service that employees with open Form 809 receipt books should not have access to,
we identified those employees who had access to sensitive command codes and those who used
sensitive command codes. We also obtained printouts of the IDRS profiles which showed the
command codes the employees had access to and whether their profiles had been appropriately
restricted.
We identified 23 out of 35 employees with open Form 809 receipt books whose profiles had not
been appropriately restricted and who had access to sensitive command codes. Further, we
identified 9 employees who actually used sensitive command codes to access 93 taxpayer
accounts.




2
 The IDRS is the IRS computer system capable of retrieving or updating stored information; it works in conjunction
with a taxpayer’s account records.

                                                                                                         Page 15
              Payments Made at the Taxpayer Assistance Centers
                Are Generally Timely and Accurately Processed



                                                                                  Appendix V


   Taxpayer Assistance Centers Visited
and the Selection Criteria and Methodology


        Las Vegas,
         Nevada               Chicago Ridge,
                                  Illinois                        Lancaster,
                                                                 Pennsylvania
                              Morton Grove,
                                  Illinois




                                                                                  Cherry Hill,
                                                                                  New Jersey




   El Monte, California
  Long Beach, California
  Los Angeles, California                      Birmingham,
                                                 Alabama



                Houston NW,                                    Atlanta (Koger
                   Texas                                     Center), Georgia
                Houston SE,                                   Atlanta (Summit
                   Texas                                     Building), Georgia
                                                                Gainesville,
                                                                  Georgia




                                                                                           Page 16
                          Payments Made at the Taxpayer Assistance Centers
                            Are Generally Timely and Accurately Processed




Selection Criteria and Methodology

We used the following criteria when selecting the Taxpayer Assistance Centers (TAC) for
testing.
•   TACs visited during another Treasury Inspector General for Tax Administration (TIGTA)
    audit.1
        Cherry Hill, New Jersey.
        Chicago Ridge, Illinois.
        Houston (Northwest Office), Texas.
        Houston (Southeast Office), Texas.
        Lancaster, Pennsylvania.
        Morton Grove, Illinois.
•   Coverage in all five Area Offices. The TACs are the responsibility of the Field Assistance
    Office in the Customer Assistance, Relationships, and Education function within the Wage
    and Investment Division and are organized into five Area Offices.
        AREA 1: Cherry Hill, New Jersey; Lancaster, Pennsylvania.
        AREA 2: Chicago Ridge and Morton Grove, Illinois.
        AREA 3: Atlanta (Koger Center and Summit Building) and Gainesville, Georgia;
                Birmingham, Alabama.
        AREA 4: Houston (Northwest and Southeast Offices), Texas.
        AREA 5: El Monte, Long Beach, and Los Angeles, California; Las Vegas, Nevada.
•   Volume of payments received.
•   Proximity to the TIGTA Atlanta, Georgia, office.
We also contacted the TIGTA Office of Investigations to determine if there were any open or
closed investigations that would prohibit testing in a TAC.




1
 Coordination and Monitoring Is Needed for Continued Improvement in the Tax Return Preparation Process
at the Taxpayer Assistance Centers (Reference Number 2005-40-147, dated September 2005).

                                                                                                    Page 17
       Payments Made at the Taxpayer Assistance Centers
         Are Generally Timely and Accurately Processed



                                                Appendix VI


Management’s Response to the Draft Report




                                                          Page 18
Payments Made at the Taxpayer Assistance Centers
  Are Generally Timely and Accurately Processed




                                                   Page 19
Payments Made at the Taxpayer Assistance Centers
  Are Generally Timely and Accurately Processed




                                                   Page 20
Payments Made at the Taxpayer Assistance Centers
  Are Generally Timely and Accurately Processed




                                                   Page 21
